‘X
STEPHEN B. JONES, SR.

*

IN THE

*

COURT OF APPEALS

*

OF MARYLAND

*

Petition Docket No. 370
September Term, 2020

v.

CIO

*
*
*

STATE OF MARYLAND

(ALA No. 577, Sept. Term, 2020
Court of Special Appeals)
(No. 14-K-09-007529, Circuit
Court for Kent County)

ORDER

Upon consideration of the petition for a writ of certiorari to the Court of Special
Appeals and the supplement filed thereto, in the above-captioned case, it is this 29th day of
January, 2021

ORDERED, by the Court of Appeals of Maryland, that the petition and the
supplement be, and they are hereby, DENIED as there has been no showing that review by
certiorari is desirable and in the public interest.

/s/ Mary Ellen Barbera
Chief Judge

\

E-FILED
Court of Special Appeals
Gregory Hilton
11/5/2020 10:43 AM

Circuit. Court for Kent County
Case No. 14-K-09-007529
UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 577
September Term, 2020
POST-CONVICTION
Stephen Barry Jones, Sr.
v.

State of Maryland .
Leahy,
Friedman,
Zarnoch, Robert A.
(Senior Judge, Specially Assigned),
JJ.
Per Curiam

Filed: November 5, 2020

~w'

The application of Stephen Barry Jones, Sr. for leave to appeal from a denial of

r

petition for post-conviction relief, having been read and considered be, and is hereby,
denied.
APPLICATION FOR LEAVE TO
APPEAL DENIED.
ANY COSTS TO BE PAID BY
APPLICANT.

■>

E-FILED
Court of Special Appeals
Gregory Hilton
12/7/2020 2:43 PM

IN THE COURT OF SPECIAL APPEALS OF MARYLAND
*

Stephen Barry Jones, Sr.,
Applicant
v.

No 0577, September Term 2020

*

CSA-ALA-0577-2020

*

Circuit Court No. 14-K-09-007529

*

State of Maryland,

*
*

Respondent
*

*

*

*

*

*

*

*
*

*

*

*

*

*

*

MANDATE
JUDGMENT: November 5, 2020: Application for leave to appeal denied.
Any costs to be paid by applicant.
Per Curiam filed.
.

STATE OFMARYLAND, Set.:
I do hereby certify that the foregoing is truly taken from the records and proceedings of the said
Court of Special Appeals. In testimony whereof, I have hereunto set my hand as Clerk and
affixed the seal of the Court of Special Appeals, this 7th day of December, 2020.

Gregory Hilton, Clerk
Court of Special Appeals

►

!

I,

EnteredrClerk, CircuitXourt for ■'
Kent County, MD
February 18, 2020
IN THE CIRCUIT COURT FOR KENT COUNTY
STATE OF MARYLAND
v.
STEPHEN BARRY JONES, SR.
k

k

k

k

k

k

*
*
* •
*
*
*

CASE NO. 14-K-09-007529

k

k

k

k

k

*

k

ORDER
Petitioner, Stephen Barry Jones, Sr.’s Motion to Re-Open a Previously Closed Post
Conviction Proceeding has been carefully considered by this Court.
Petitioner asserts in his Motion that two issues have not been finally litigated: (1) the
State court failed to hold an initial appearance in county venue; and (2) the State did not file
formal charges until 42 days after his arrest.
These issues were fully litigated at Petitioner’s Post Conviction hearing held March 3,
2017, and in Judge Ross’s Post Conviction Opinion and Order dated May 11,2017, on pages 89. . Additionally, these issues having been fully litigated was discussed in Judge Whelan’s
Memorandum and Order of Court, dated February 22,2019, on pages 2-3.
Thus, it is this day, by the Circuit Court for Kent County, hereby
ORDERED, that Petitioner’s Motion to Re-Open a Previously Closed Post Conviction
Proceeding is DENIED.
02/13/2020 2:24:28 PM

02/13/2020

Date

i

aft

\rr - **

C *
'if - s ,* •

05/11/2017
f

r

THE CIRCUIT COURT FOR QUEEN ANNE’S COUNTY

*

v.

*

*

CASE NO.: 14-K-09-007529

*

Stephen Barry Jones, Sr.
*

i

*

State of Maryland

... •*.. -

*

*

*

*

•k

,

.■*

•

*

4

POST CONVICTION OPINION and ORDER
I. STATEMENT OF REASONS AND ORDER OF COURT
Stephen Barry Jones, Sr., Petitioner, filed a petition seeking post-conviction relief under
the Maryland Uniform Post Conviction Procedure Act, Md. Code Anri., Crim. Proc., §§7-101, et.
seq. (2008, 2016 Supp.). Petitioner is incarcerated at the Roxbury Correctional Institute serving
a 40 yedr executed sentence for second degree child abuse and second degree assault. Petitioner
filed a pro se Petition, his first, on December 10, 2015. Amended Petitions were filed on March
,8, 2016, May 17, 2016, October 5,2016, and December 29, 2016. Another Amended Petition
was filed by the Office of the Public Defender On February 13, 2017. In the Second Amended
Petition by the Office of the Public Defender (supplemental petition”), he raises three (3)
allegations of error. These are:.
1. Trial Counsel committed a serious prejudicial error by -failing to tender timely,
consistent objections when the State elicited hearsay testimony from the investigating
officer and the Victim’s family members in which they recounted the substance of the
Victim’s prior description of the abuse.
2. Trial Counsel committed a prejudicial attorney error when he failed to inquire as to
whether Ms. Jones, Petitioner’s wife, was facing theft, forgery, and false statement :
charges.'
3. Trial Counsel committed a prejudicial attorney error by failing to advise Petitioner
that he only had five years within which to seek a hearing oii his motion for
modification.
In Petitioner’s pro se Petitions for Post-Conviction, he raises one (1) allegation that was
heard on the record. He submitted on his filings for all claims. The allegation is:

1

/•

4. Petitioner did not see ajudicial officer for initial appearance pursuant to MD Rule 4-

if\

213 when he was arrested and the State waited 42 days before bringing charges.
BACKGROUND INFORMATION
^;Petitioner was tried the Circuit Court for Kent County on twelve (12) charges. Petitioner
was initially represented by the Office of the Public Defender; however, after he terminated that
representation, Petitioner was represented by Bryan DiGregory, Esquire. Petitioner was found
guilty of Count 1 - Second Degree Child Abuse and sentenced to .15 years’ commitment; to the
Division of Correction, with all but 10 years suspended.' He was found guilty of Count.4 - Sex
Abuse of a Minor and was sentenced to 30 years’ commitment to D.O.C., consecutive to the teim
in Count 1.

.

The prayers for relief requested by the Petitioner are: 1) new trial; 2) belated hearing on
Motion for Modification; 3) any otter appropriate relief. This Court has taken judicial notice of
the entire case file along with the record of the appeal to the Court of Special Appeals.
ALLEGATION ONE
1. Trial Counsel committed a serious prejudicial error by failing to tendertimeiy,
consistent objections when the State elicited hearsay testimony from the investigating
officer and the Victim’s family members in which they recounted the substance of the
• Victim’s prior description of the abuse.
FACTS
: During Trial Counsel’s cross-examination of Cpl. Mcfarland, Petitioner sought to
challenge the Victim’s credibility by noting that there had been omissions and inconsistencies in
the Victim’s prior statements to the detectives. After the testimony of Alexis, the Victim, Trial
Counsel moved to suppress any testimony through the detective relating to what Alexis
purportedly told the. detective. The State had filed a memorandum of law in support of their
position in support of allowing the detective’s testimony as a hearsay exception, i.e. the prompt
reporting of sexual abuse.
In this case, after the Victim testified, the State called Cpl. Mcfarland to testify regarding
the investigation he had conducted. In his initial direct examination, Cpl. Mcfarland offered only
2

basic information regarding the investigative process and did not address the substance of the
statements the Victim had made to him. On cross-examination, Trial, Counsel asked Cpl.
Mcfarland questions designed to provide a firm timeline as to when the Victim claimed certain
events had taken .place. Additionally, Trial Counsel questioned Cpl. Mcfarland regarding the"
apparent inconsistency between the Victim’s claim that.Petitioner had used a.condom aiid;lyet,
also claimed jthat Petitioner had ejaculated on her. :

■V;:7>.

■!j

On redirect examination, the State asked the detective: “Let’s go back to August 4tiiof
yoiir first interview with Alexis, and just ... whydon’tyou just tell the jury what she told you on
that time:” The State followed up by asking the detective to reveal “what the victim told [him] in
i..

[the] March interview^” The Detectivd responded, in'narrative fashion. Trial Counsel noted an
objection to the narrative nature of the testimony, which the Court sustained. The State, in
response, soyght to elicit testimony, from the officer regarding the Victim’s prior statements,
prompting a bench conference, puring the bench conference, the State alleged that Trial Counsel
had “opened the door” by asking questions on cross-examination regarding the two statements
the Victim had made. Trial Counsel did not disagree but challenged die narrative format of the
questions being asked. Consequently, die State narrowed the call of each question to a particular
detail to address Trial 'Counsel’s-concerns over narrative answers.
ANSWER
A claim for ineffective assistance of counsel is appropriate to be raised in a petition for.
post-conviction relief. Johnson v. State, 292 Md. 405,434-35 (1992); Abeokuto v. State, 391
Md. 289, 330 (2006). In order to prove ineffective assistance of counsel, Petitioner must meet the
dual Strickland standard of error and prejudice. In short, the Strickland standard means:
A convicted defendant’s claim-that: counsel’s assistance was so defective as to
require reversal of a, conviction or death sentence has two components. First, the
defendant must show that counsel’s performance was deficient.. This requires
showing that counsel made errors so serious that counsel was not functioning as the
“counsel” guaranteed the defendant by the Sixth Amendment. Second the
defendant must show that the deficient performance prejudiced the defense.«
Matthews v. State, 161 Md. App. 248 (2005) (quoting Strickland v. Washington, 466 U.S. 668
(1984)).

3

The second prong of Strickland is often a high bar. The standard for prejudice is a
probability that undermines the confidence in the outcome. Circincione v. State, 119 Md. App.
471,485 (1998) (quoting Strickland, 466 U.S. at 694). “[I]t is not enough for the defendant to
show that the errors had some conceivable effect on the outcome of the proceeding...it must
also be shown “that there is a reasonable probability that, but for counsel’s unprofessional errors,
the result would have been different;” Harris v. State, 303 Md. 685, 700 (1985). The elements of
Strickland need not be taken in any particular order, allowing for consideration of a Petitioner’s
claim for lack of prejudice without analyzing counsel’s performance. Circincione, 199 Md. App.
at 485.

■
It is ineffective assistance for trial counsel to fail to object, on account of ignorance of the

law, to prejudicial inadmissible evidence. Perry v. State, 357 Md. 37 (1999). Trial Counsel is
obliged to correct any errors fnade by the court which could harm the defense. Whitney v. State, '
158 Md. App. 519 (2004). Where evidence is inadmissible on account of violation of a
“substantial constitutional right,” prejudice will usually be presumed. Coleman v. State, 434 Md.
320, 345 (2013). Trial counsel is not required to object to correct rulings. Jones v. State, 379 Md.
704, 711 (2004). Nor is trial counsel required to object to every possible trial judge error. Trial
counsel is ineffective for failing to object to rulings only where there is a “reasonable possibility
of success” on appeal. Also, failure to make a particular objection, when that.objection was
already made and overruled, is not ineffective assistance. Cross v. State, 371 Md. 334, 350
(2002).
Trial counsel is required to have a defense strategy. Trial counsel is granted wide latitude
in his choice of strategies. State v. Seward, 220 Md. App. 1,22(2014). Trial counsel should not
be faulted for reasonable miscalculations or lack of foresight. Harrington v. Richter, .562 U.S. 86
(2011). The fact that a strategy does not work as well as trial counsel had hoped, does not mean
that trial counsel was ineffective in adopting the strategy.77. Where two strategies are
inconsistent, or would in some way undermine each other, it is permissible for trial counsel to
assert one and ignore the other. State v. Peterson, 158 Md. App. 558 (2004).
In this matter, Petitioners allegation of error is that Trial Counsel committed a serious
prejudicial error by failing to object to the hearsay testimony of the officer who was recpunting
details of the sexual abuse that was told to him by the victim. Petitioner’s argument was that the
hearsay exception for prompt reporting of sexual abuse does not allow for the narrative
4

testimony and the inclusion of details of the abuse:. Only corroboration of the basic details such
'' -j.

•

.

•

/ ■

as time, location, and identity of the attacker are allowed. Petitioner cites Muhammady, State in„
■i

support of his interpretation of the objection that should haverbeen made by .trial counsel. •Details of alleged victim's statement to detective, beyond the .allegation that she was. sexually .'
assaulted by defendant, were, not admissible under the prompt complaint of sexual assault, r,

.......

exception to.the,rule, against hearsay. Details corroborated much more than alleged-victim's ,;
testimony that.she was^sexuajly assaulted, by defendant in a-vacant row house on.a particular^ .
date,.and they, corroborated.her ^ntire.narrative of events .Muhammad v. State, 223 Md. App.
255 (2015).
In order to'findftiatTtial^Counscl wasineffective,under Strickland, Petitioner has to
prove that .thj^ conduct was, so deficient and serious that counsel was not functioning as the
“counsel” guaranteed the defendant by the Sixth Amendment. Trial Counsel also stated that the
defense strategy that \yas,employed was to .point out. inconsistencies between the physical
descriptions of Petitioner indifferent statements made by the victim. Trial Counsel is given wide
latitude in sculpting theft* trial strategies. The results of a certain trial strategy are not deficient as
long as the strategy is reasonable.
Here, Trial counsel dictated a trial strategy to challenge die Victim’s credibility by noting
that there had been omissions and inconsistencies in the Victim’s prior statements to the
detecriWsrP^bfthafstrategy^involvefi^lbwih^fiie detectiveTbTe^fyaFtbhertaiffdeiailsthat”
were conveyed to him by the victim. The Court finds this strategy to be reasonable under the
circumstances; therefore, there is no prejudicial error .under the first prong of Strickland. Postconviction relief asserted in this allegation is denied.
ALLEGATION TWO
2. Trial Counsel committed a prejudicial attorney error when he failed to inquire, as ,to •
whether Ms. Jones, Petitioner’s wife, was facing theft, forgery, and false statement
charges.

,
FACTS

During the cross examination of the Victim’s mother, Ms. Lisa Jones, Trial Counsel
sought to establish challenge her credibility based on her alleged involvement in check fraud,
theft, and prescription fraud. Although the Court allowed counsel to make some leeway, Trial
5

Counsel never informed the jury that Ms. Jones was facing charges, in part because the Circuit
Court sought to curtail the inquiry.
Trial Counsel was aware of the pending criminal charges against Ms. Jones. He could
not think of a specific trial Strategy that would have precluded him from introducing this
evidence to mipeach Ms. Jones. Trial Counsel admitted that the assertion of the marital privilege
was a trial strategy.' Tne relevant testimony at trial, ho wever, set forth a strong basis to believe
that MsfJones had engaged in criminal activity. Her charges were placed on the stet docket only
two months following Petitioner’s trial, suggesting the possibility of a benefit. Trial Counsel was
also aware that the charges were brought by the Petitioner while he was incarcerated and that any
line of questioning about the charges would likely produce a suggestion that the Petitioner
fabricated criminal charges in order to impeach the State’s witness.
ANSWER

Md. Rule 5-616(a)(4) provides the defendant a right to question a witness about any facts
that are of consequences to whether the “witness is biased, prejudiced, interested in the outcome,
of the proceeding, or has a motive to testify falsely.” In' Coffins v. State, 318 Md. 269 (1990), the
court.addressed whether it was proper for the trial Court to preclude examination of an
accomplice regarding his own pending charges. Although finding the error harmless, Coffins
determined that sufficient evidence of criminal wrongdoing existed and that the defendant had a
right to examine the witness regarding the charges to assess his credibility. Id. at 281-92. As
observed in Leeks v. State, 110 Md. App. 543, 557 (1996), when the.defendant alleges the
witness has a motive to fabricate, the jury is entitled to assess the witness’ credibility while
observing their demeanor in response to questions permitted under Rule 5-616.
It is this Court’s view that the trial strategy adopted by trial counsel was reasonable and,
therefore, is not error under the first prong of Strickland. For this reason, post-conviction relief
on this allegation is denied.

ALLEGATION THREE
3. Trial Counsel committed a prejudicial attorney error by failing to advise Petitioner
that he only had five years within which to seek a hearing on his motion for
modification.

. .
6

FACTS
. Petitioner filed a timely motion for modification, and docket entries reflect that the Court
never ruled upon the motion. Trial Counsel could not remember whether he had advised
Petitioner regarding the time period in which to. seek hearing on the modification motion; Trial; o
Counsel noted Petitioner’s appeal, and his appearance was stricken on June 18,' 201:0;(Petitioner /
testified that tie was'never infonned of the-limit and was not aware thathe was entitled to have; ■■;
counsel assist in seeking the modification hearing. Accordingly, Petitioner requests permission to
seek a hearing on his motion for modification.

■„

. ,

■:

...ANSWER .
.. j

A defendant’s right to effective assistance of counsel extends beyond trial and sentencing
and encompasses^that period after the hearing during which the court maintained revisory
power over the case and could have entertained a motion for modification.” State y. Flansburg,
345 Md. 694, 697 (1997), The Flansburg Court recognized that counsel’s representation .
“extends to all stages in the proceedings, including ... motions for modification or review of
sentence
at IQXiquotingMd. Rule 4-214(b)). And, the “right to counsel .means the right
to the effective assistance of counsel.” Id. at 703.
Further, the .Petitioner, need not present any evidence of prejudice, pursuant to the
standard set fprth in Strickland v. Washington, 466 U.S. 668 (1984), when an attorney fails to file
for a modification pf sentence. Matthews v. State, 161 Md. App.248 (2005). The underlying
reason for the court’s holding in Matthews was that the “failure to follow a client’s directions to
file a motion for modification of Sentence” is prejudicial in and of itself “because it results in,a
loss of any opportunity to have a reconsideration of sentence hearing.”,/#, at 252. Most recently*;
the. Court of Special Appeals in Statev. Adams, 171 Md. App. 668, 716 (2006), reversed on
other grounds, 4Q6 Md. 240 (2006), held that absent an express directive not to file the motion,
an attorney is ineffective for not filing a motion (presumably, even without mi express request to
file the motion) because there is no risk that a greater sentence could be imposed.
It is undisputed that a Motion for Modification was timely filed in this matter. The relief
sought is to file a belated Motion for a hearing on the modification which was taken sub curia.
7

Petitioner claims that he was never advised that he only had five (5) years from the date of filing
in order to request a hearing. Trial Counsel could not remember whether he had advised
Petitioner of this right Under Strickland the Court must decide whether counsel’s actions were
deficient. This Court holds that the advisement of the Petitioner’s right to seek a hearing within
5 yeg^s cjoesjaot. fall on Trial .Counsel; therefore, Trial Counsel’s conduct was not deficient. Any
requirementof advisement falls upon the court. .After review of the transcripts, the Court
advised Petitioner that he had ninety (90) days in order to file the motion for modification but did
not advise him of the 5 year jurisdictional limitation on the judge’s ability to modify the
sentence. For these reasons, Trial Counsel’s actions are not deficient and post-conviction relief
on this ground is denied.

. .

ALLEGATION FOUR
4. Petitioner did not see a judicial officer for initial appearance pursuant to MD Rule 4213 when he was arrested, and the State waited 42 days before bringing charges.
FACTS
Petitioner claims that he was never brought before a commissioner or a judge for an
initial appearance. He stated that he voluntarily surrendered himself in Dorchester County and
then was transferred to Kent County where the charges were pending. Petitioner claims that
charges were not filed against him for 42 days, or until September 23, 2009.
It appears Clear, however, that a criminal information was not filed in circuit court until
September 23, 2009. The charges were filed and warrant issued on August 7, 2009, and
defendant was served on August .13,2007. Petitioner had an initial appearance on August 13,
2017 in Case No.: 4L00010000ANSWER
The waiver provision contained in §7-106(c) pertains only to non-fundamental rights.
There is no waiver of fundamental rights for purposes of post-conviction. See e.g. Wyche v.
•

,i

State, 53 Md. App. 403 (1983) (if the right upon which the allegation is premised is a
fundamental right, the allegation will not be deemed waived simply because it was not raised at a
prior proceeding). Therefore, it was the legislature’s intent that allegations concerning the failure
8

to advise a defendant of a fundamental right be reviewable on post-conviction regardless of when
it is raised.
.. .
;
The Court has taken judicial notice of the entire case file in this matter. Petitioner was
subsequently charged in the Circuit Court for Kent County in the instant case on August 23,:
2009. Petitioner’s attorney entered his appearance on October 14, 2009; consequently/'tKe initial
appearance in the. Circuit Court was cancelled. Petitioner was afforded all rights and protections
relating to the charging of criminal defendants. For this reason post-conviction relief will be
denied.
• '• ; •
PETITIONER’S PRO SE ALLEGATIONS
Petitioner filed a pro se Petition, his first, on December 10,2015. Amended Petitions
were filedpro se on March 8, 2016, May 17, 2016, October 5, 2016, and December 29, 2016.
Within these multiple filings are many recitations of one common allegation, that Petitioner was
never brought before a judicial officer, and that Petitioner was incarcerated for 42 days before
charges were filed against him. Petitioner submitted on the pleadings that he filed and no
additional evidence was presented at the hearing. This Court has dealt with all allegations
relating to the initial appearance above. Any allegations relating to warrants were waived and/or
finally litigated in the appeal that was noted in this matter. For these reasons, Petitioner’spro se_
allegations for post-conviction relief are denied.
n. CONCLUSION
For the foregoing reasons, Petitioner’s Petition for Post-Conviction relief and. amended
♦

petitions and supplemental petition under the Maryland Uniform Post Conviction Procedure Act
are hereby denied. .
.

9

i

I

05/11/2017

v

THE CIRCUIT COURT FOR QUEEN ANNE’S COUNTY

State of Maryland

*.

v.

*

Stephen Barry Jones, Sr.

*

CASE NO.: 14-K-09-007529
\
;

*

*

★

*

*

it

*

*

*

*

*

* '

/

ORDER

Based upon the Post-Conviction Opinion and the Court’s review of this matter,' it is this
day of May, 2017, by the Circuit Court for Queen
e’s County:
ORDERED, that the Petition for Post-Conviction relief and~hmended petitions and
supplemental petition are hereby DENIED.
!

*;

Signed: 5/11/2017 08:06 AM

Thomas G. Ross
Judge

- -! *
r*.

TRUE COPY TEST:
MARK L. MUMFGRD, CLERK
BY

10

hi0lA)cP^
DEPUTY CLERK

